     Department of Homeland Security





            FEMA Public Assistance Grant Funds 

           Awarded to City of Greensburg, Kansas





DD-12-16                                            June 2012

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security
                                           Washington, DC 20528 1 WW\\I.oig. dhs.gov




                                              June 19, 2012




MEMORANDUM FOR:                        Beth Freeman
                                       R



FROM:




SUBJECT:                               FEMA Public Assistance Grant Funds Awarded ta
                                       City of Greensburg, Kansas
                                       FEMA Disaster Number 1699-DR-KS
                                       Audit Report DD-12-16

We audited Public Assistance grant funds awarded to City of Greensburg, Kansas (City),
Public Assistance Identification Number 097-28675-00. Our audit objective was to
determine whether the City accounted for and expended Federal Emergency Management
Agency (FEMA) grant funds according to Federal regulations and FEMA guidelines.

The Kansas Department of Emergency Management (KDEM), a FEMA grantee, awarded the
City $16.5 million for damages caused by severe storms, tornadoes, and flooding that
occurred May 4, to June 1, 2007. The award provided 75 percent FEMA funding for 27 large
and 49 small projects l The audit covered the period May 4,2007, through January 17, 2012,
the cutoff date of our audit, and included a review of six large projects and three small
projects totaling $10,166,993, or 61 percent of the total award (see Exhibit A, Schedule of
Projects Audited). As of the cutoff date of our audit, none of the large projects that we
reviewed were closed.

We conducted this performance audit between September 2011 and March 2012 pursuant
to the Inspector General Act af 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based upon our audit objective . We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based upon our audit objective . We
conducted this audit according to the statutes, regulations, and FEMA policies and guidelines
in effect at the time of the disaster.

1   Federal regulations in effect at the time of the disaster set the large project threshold at $59,700.
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



   We interviewed FEMA, KDEM, and City officials; reviewed judgmentally selected project
   costs (generally based on dollar value); and performed other procedures considered
   necessary to accomplish our objective. We also made a site visit to the City on May 24,
   2007, to observe the damages and meet with FEMA officials. We did not assess the
   adequacy of the City’s internal controls applicable to grant activities because it was not
   necessary to accomplish our audit objective. We did, however, gain an understanding
   of the City’s method of accounting for disaster-related costs and its procurement
   policies and procedures.


                                              BACKGROUND

   A violent storm system developed over the Midwest on May 4, 2007, spawning lethal
   tornadoes, one of which left a trail of debris 22 miles long and more than a mile wide,
   nearly destroying the entire City. The tornado turned brick and concrete buildings to
   rubble, rolled semitrailers, and left whole neighborhoods unrecognizable. The City, a
   small, rural farming community located in southwestern Kansas, had a population of
   1,389 before the disaster.

   The EF-5 (Enhanced Fujita scale) tornado 2 touched down more than 75 times, killing 12.
   FEMA first responders noted that the City’s facilities were destroyed, rendered
   unusable, or suffered major damage. In addition, the tornado damaged 90 percent of
   all street signs and signal lights and 90 percent of the City’s vehicles (see figure 1).




   2
     The Enhanced Fujita scale rates the strength of tornadoes in the United States based on the damage
   caused. An EF-5 tornado is the highest rating and has wind speeds in excess of 200 miles per hour.


www.oig.dhs.gov                                       2                                              DD-12-16
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




   Figure 1: Residential neighborhood in Greensburg, Kansas, destroyed by May 2007 tornadoes.
   Source: Department of Homeland Security, Office of Inspector General, site visit, May 2007.



                                           RESULTS OF AUDIT

   The City accounted for grant funds on a project-by-project basis as required by Federal
   regulations. However, the City did not always expend the funds according to Federal
   regulations and FEMA guidelines. As a result, we question $686,656 of unsupported and
   ineligible costs that the City claimed. In addition, FEMA should deobligate and put to
   better use $2,233,103 of unused Federal funds that exceeded the amount the City
   claimed for one project.

   Finding A: Unsupported Contract Costs

   The City’s claim included $609,351 of unsupported contract costs under Project 399.
   The invoices that supported these costs did not include sufficient documentation to
   describe the costs that were incurred. Cost principles at 2 CFR part 225, Appendix A,
   section C.1.j, state that a cost must be adequately documented to be allowable under
   Federal awards. Further, FEMA’s Policy Digest (FEMA 321, October 2001) states that
   applicants must carefully document contractor expenses when using time-and-material
   contracts. Therefore, we question $609,351 as unsupported.

   City officials said that they reviewed the contractor’s invoices and believed the
   contractor adequately supported its costs because City officials were generally aware of
   the contractor’s activities. City officials requested additional documentation from the


www.oig.dhs.gov                                      3                                           DD-12-16
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

   contractor in an attempt to support these questioned costs, and the contractor
   provided summary information and general explanations for average unit cost and use
   of accounting codes. However, the contractor did not provide source documentation to
   support average unit cost calculations for specific items requested and quantities billed.

   Finding B: Duplicate Contract Costs

   The City’s claim included $43,317 of duplicate contract costs under Project 399. It
   appears that the City inadvertently included the same contractor invoice in its claim
   twice, and KDEM reimbursed the City twice under the two separate payment requests.
   Therefore, we question $43,317 as ineligible duplicate costs. City officials agreed with
   this finding.

   Finding C: Ineligible Costs

   The City claimed $33,988 for an extended warranty on a transformer purchased for the
   electrical distribution substation rebuilding project. However, extended warranty costs,
   essentially a form of insurance, are not eligible under the Public Assistance program.
   The purchase of the warranty was an improvement above the predisaster condition
   because the City did not have a warranty on the transformer that was replaced. FEMA
   Region VII officials agreed and said that the cost for improvements on a project is not a
   FEMA-eligible expense. FEMA’s Policy Digest states that the costs of restoring damaged
   facilities are eligible for Public Assistance funding, but only on the basis of the facility’s
   predisaster condition. Also, the cost for the warranty was not necessary to complete
   the replacement of the transformer. Costs must be necessary to be allowable under a
   Federal award (2 CFR part 225, Appendix A, section C.1.a). Therefore, we question
   $33,988 as ineligible costs.

   City officials said that FEMA officials advised them to purchase the extended warranty,
   but could not provide physical evidence to support their statement. Because of the
   large number of FEMA officials who worked on this disaster, FEMA could not confirm
   the City’s assertion.

   Finding D: Unused Funds

   The City completed work and claimed $4,675,623 for Project 399, which is $2,233,103
   less than the total amount FEMA estimated and obligated for this project. Therefore,
   FEMA should deobligate $2,233,103 of unused Federal funds and put them to better
   use. The City agreed with this finding and requested that FEMA and KDEM close this
   project. In January 2012, FEMA officials advised us that they would suspend the
   closeout of Project 399 until after we determined the results of our audit.



www.oig.dhs.gov                                  4                                          DD-12-16
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   Based on our review of invoices, the City incurred all costs for this project by the end of
   2009, and the City requested reimbursement for the costs from KDEM as the City paid
   invoices. In February 2011, the City made an initial request for closeout of Project 399;
   however, because of staff turnover, the City did not have the resources to organize its
   claim and request final project closeout until September 2011.

   According to 44 CFR 206.205(b)(1), the grantee shall make an accounting to FEMA of
   eligible costs for each approved large project as soon as practicable after the subgrantee
   has completed the approved work and requested payment. In addition, FEMA’s current
   Public Assistance Guide (PA Guide) (FEMA 322, p. 141), published in June 2007, a month
   after the disaster, states, “Progress reports are critical to ensuring that FEMA and the
   State have up-to-date information on PA Program grants.” The PA Guide added the
   requirement that quarterly progress reports include “the amount of expenditures and
   amount of payment for each project.” KDEM provided progress reports for our review
   after the exit conference, but none included financial information other than the
   obligated amount of the project. FEMA Region VII officials told us they have not
   required this additional financial information because they did not have the resources to
   monitor subgrantee activities.

   We consider 6 months after the subgrantee has completed the approved work and
   requested payment a reasonable amount of time for the grantee to complete its review
   of costs claimed and submit an accounting of eligible costs to FEMA. Further, grantees
   should inform FEMA when a significant amount of obligated funding will not be used.
   Without timely closeouts and accurate progress reports, Federal funds remain obligated
   as a liability against FEMA’s appropriated funds and can limit FEMA’s ability to authorize
   other disaster assistance projects. Accordingly, FEMA should deobligate $2,233,103 of
   Federal funds and put them to better use and require KDEM to submit quarterly
   progress reports that comply with FEMA’s 2007 PA Guide.

   FEMA Region VII officials told us that they did not deobligate the funds faster because
   they did not have sufficient financial visibility at the subgrantee level to identify
   completed projects. Further, FEMA Region VII officials said they relied on KDEM to tell
   them when projects were ready for closeout. However, FEMA Region VII and
   headquarters are taking steps to improve FEMA’s visibility over subgrantee activities.
   For example, FEMA Region VII provided draft procedures to improve subgrantee
   monitoring policies nationally. FEMA Region VII officials also demonstrated their
   support to improve oversight by providing their plans to hire seven additional
   employees to monitor subgrantee activities.




www.oig.dhs.gov                                 5                                         DD-12-16
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

                                   RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region VII:

   Recommendation #1: Disallow $609,351 ($457,013 Federal share) of unsupported
   contract costs unless the City provides adequate documentation to support these costs
   (finding A).

   Recommendation #2: Disallow $43,317 ($32,488 Federal share) of ineligible duplicate
   contract costs (finding B).

   Recommendation #3: Disallow $33,988 ($25,491 Federal share) of ineligible contract
   costs claimed for an extended warranty on equipment (finding C).

   Recommendation #4: Deobligate $2,233,103 ($1,674,827 Federal share) of unused
   Federal funds and put them to better use (finding D).

   Recommendation #5: For all disasters, require KDEM to submit quarterly progress
   reports that comply with FEMA’s 2007 Public Assistance Guide (finding D).

   Recommendation #6: Until FEMA finalizes its draft procedures to improve subgrantee
   monitoring, adopt FEMA draft procedures as Region VII-specific procedures requiring
   improved subgrantee monitoring (finding D).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with City officials during our audit and included
   their comments in this report, as appropriate. We also provided a draft report in
   advance to FEMA, KDEM, and City officials and discussed it at exit conferences held on
   March 29, 2012. As a result of additional information provided by KDEM after the exit
   conference, we eliminated one of our findings. FEMA officials generally agreed with our
   findings, but said that they are still in the process of closing Project 399 and reviewing
   claimed costs for this project. KDEM also generally agreed with our findings. City
   officials generally agreed with our findings but said that they would withhold final
   agreement until after FEMA closes the project.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to



www.oig.dhs.gov                                6                                        DD-12-16
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   inform us about the current status of the recommendation. Until your response is
   received and evaluated, the recommendation will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination. Significant contributors to this
   report were Tonda Hadley, Christopher Dodd, DeAnna Fox, and Brandon Landry.

   Should you have questions, please call me at (202) 254-4100, or your staff may contact
   Tonda L. Hadley, Director, Central Regional Office, at (214) 436-5200.




www.oig.dhs.gov                               7                                       DD-12-16
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


                                                                             EXHIBIT A
                              Schedule of Projects Audited

                            May 4, 2007, to January 17, 2012

                               City of Greensburg, Kansas

                           FEMA Disaster Number 1699-DR-KS


                                                                  Total       Unused
         Project      Award     Finding   Finding   Finding     Questioned     Funds
         Number      Amount        A         B         C          Costs      Finding D

           399      $ 6,908,726 $609,351 $43,317 $33,988          $686,656 $2,233,103
           366        2,030,560        0       0       0                 0
         55, 338,
         401, 402     1,110,816        0       0       0                 0          0
           495           53,112        0       0       0                 0          0
           58            36,250        0       0       0                 0          0
           602           27,529        0       0       0                 0          0
          Totals    $10,166,993 $609,351 $43,317 $33,988          $686,656 $2,233,103




www.oig.dhs.gov                            8                                      DD-12-16
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                                                                            EXHIBIT B 

                                  Report Distribution List

                                City of Greensburg, Kansas

                             FEMA Disaster Number 1699-DR-KS



   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison, DHS

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Audit Liaison. FEMA Region VII
   Audit Liaison, FEMA (Job Code G-11-063)

   Grantee

   Public Assistance Coordinator, Kansas Division of Emergency Management

   State

   Legislative Post Auditor, State of Kansas

   Subgrantee

   Mayor, Greensburg, Kansas




www.oig.dhs.gov                                9                                 DD-12-16
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
